Ti

sowme  CXQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B u efs contact@cocklelegalbriefs.com
st. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
NILESH KUMAR,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text. and 10 point for the

footnotes, and this brief contains 4182 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of October, 2019.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LE Qudroe- ,
My Commission Expires Nov 24, 2020 :

 

Notary Public Affiant

38719
